 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




   SERVICES TO PERSONS WITH

 CO-OCCURRING MENTAL HEALTH

AND SUBSTANCE ABUSE DISORDERS


         PROGRAM DESCRIPTIONS




               swicg~
          JH            “b%




               $
         5*                   JUNE GIBBS BROWN
         :                     Inspector General
         %
          %
           %%.                     JUNE 1995
             4+*ZQ
              >                  OEI-05-94-00151
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared under the direction of William Moran, the Regional Inspector
General for the Office of Evaluation and Inspections, and Natalie Coen, Deputy Regional
Inspector General, Office of Evaluation and Inspections, Region V. Participating in this
project were the following people:

Region V                                                                   Headquarters

Barbara Butz                                                               David Wright
Nora Lynn

To obtain a copy of this report, call the Chicago Regional Office “at312/353-4124.
                     TABLE                   OF CONTENTS


                                                                                                                PAGE

~ODIJcrIO             W. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


PJWGRAMIXS€
        CROONS                . . . .....              ................................ 4

 �Residential   Programs.      . . . . . . . . . . . . . . . . .

                                                                    . . . . . . ,....O    . . . . . . . . . . ..O$ . 4

 �Outpatient    Programs.      . . . . . . . . . . . . . . . . . . .

                                                                        . . . . . . . . ..OO.+     . . . . . . . . . . . 8

 �Day   Treatment@artial     Hospitalization         Programs . . . . . . . . . . . . . . . . . . . . . . . . 13


�Continuous Treatment Team Programs                     . . . . . . . . . . . . . . . . . .

                                                                                               . . . . . . . . . . . . 19

�One    Other Program..       ................
                                                              . . . . . . . . . ..O . . . . . . . . .OOO.. .
 23
                                   INTRODUCTION


PURPOSE

Describe 30 programs that serve people with co-occurring mental health and substance
abuse disorders in a community setting,

BACKGROUND

The National Comorbidity Survey, a large general population survey conducted from
1990to 1992, found that53 percent ofrespondents with alcohol abuse or dependence
over their lifetime also had a mental disorder over their lifetime, while 36 percent had
a lifetime illicit drug use disorder. Fifty-nine percent of the respondents with a history
of illicit drug abuse or dependence over their lifetime also had a mental disorder over
their lifetime, and 71 percent had a alcohol use disorder over their lifetime. In any
given year, Survey data reflect that an estimated 7.6 to 9.9 million persons with co­
occurring mental health and substance abuse (MH/SA) disorders.l

The literature strongly emphasizes the heterogeneity of this population in terms of
types of mental disorders, levels of involvement with alcohol and other drugs, and
degree of functioning. People with these co-occurring disorders can be very difficult to
treat, with chronic and severe medical, social, and emotional problems and particular
vulnerability to relapse. Few receive integrated treatment in a single setting, from a
single clinician who addresses both disorders at the same time. Yet if treated for only
one disorder, response to treatment is likely to be poor.

The broad social consequences of failing to adequately treat this population include
hopelessness, violence, crime, the spread of HIV/AIDS, tuberculosis, and sexually
transmitted diseases, with their attendant demands on hospital emergency rooms and
the public welfare and criminal justice systems.

l%u~ams and Activities for Persons w“th Co-Occuning MH/SA Dtiorders

In the Department of Health and Human Semites (HHS), the Public Health Service
funds many services and activities relevant to this population.

The Substance Abuse and Mental Health Services Administration (SAMHSA) has many
programs that are directly or indirectly targeted at people with co-occurring MH/SA
disorders. The national advisory council of SAMHSA has a working group on Services



    1 Since NCS data repect on~ the household population ages 15-54, a true picture of the magnitude of this problem
must rejlect an additional .l million institutional populatio~ .1 million homeless, .05 million youth age 0-14, and .4 to
.6 million adults age 55 or ove~ for a totaI estimated 8.3 to 10.8 million individuals.


                                                            1
Integration which is currently focusing on this issue. A SAMHSA work    group
                                                                           hasalso
been created to address this population.

Two SAMHSA service programs are specifically targeted at people with co-occurring
MH/SA disorders. Projects for Assistance in Transition from Hopelessness (PATH) is
a formula grant program to States and territories with a specific legislative mandate to
se~e persons with co-occurring MH/SA disorders. Funded at $29 million in Fiscal
Year (FY) 1994, PATH provides mental health and other services to homeless
individuals and at-risk populations that are severely mentally ill or have co-occurring
MH/SA disorders. Secondly, a demonstration program for homeless individuals with
co-occurring MH/SA disorders is overseen jointly by the Center for Mental Health
Services (CMHS) and the Center for Substance Abuse Treatment (CSAT). Sixteen
providers received grants in September 1993 totalling $4 million to develop and test
models of effective assessment and intervention for this population. In the second
year, several providers will receive continuing grants to undertake a formal evaluation
of their specific service delivery modalities.

Other SAMHSA programs include the mental health services block grant ($278
million for FY 1994) and the substance abuse prevention and treatment block grant
($1.1 billion in FY 1994). Nine Access to Community Care and Effective Services and
Supports demonstration grants ($19.4 million) are testing services integration
approaches for persons with severe mental illnesses and/or substance abuse. The
Community Support Program has funded demonstration projects on persons with co­
occurring MH/SA disorders.

Elsewhere in HHS, the National Institutes of Health fund research and services
demonstrations through the National Institutes of Mental Health, Drug Abuse, and
Alcohol Abuse and Alcoholism. The Health Resources and Services Administration
funds the Health Care for the Homeless Program and Ryan White programs for
persons with HIV/AIDS. The Indian Health Service funds services for American
Indians and Alaska Natives. The Health Care Financing Administration funds
Medicare and Medicaid for health care and related services. The Social Security
Administration funds the Social Security Disability Income and Supplemental Security
Income programs.

Outside HHS, the Department of Veterans Affairs and the Department of Housing and
Urban Development (HUD) both deal with this population in their homeless as well as
other programs. So does the Depatiment of Justice via the courts, prisons, and jails.

While the above list of agencies and programs is long, we do not know the extent to
which any of their services actually reach people with co-occurring MH/SA disorders.
We did not find national data on the number of such clients served by any of these
agencies and their programs.




                                           2

Scope   and Methodology

This study follows others we conducted on services to homeless people, especially
those with mental illness or substance abuse, and community mental health services.
In those studies, respondents pointed to persons with co-occurring MH/SA disorders,
specifically, as underserved both in homeless and traditional semice programs.

This report is a companion to another report (“Services to Persons With Co-occurring
MH/SA Disorders”, 0EI-05-94-O0150) which describes the experiences and
perspectives of supervisors or managers, and staff who work directly with clients in
treatment-related activities. The programs are all community-based (as opposed to
inpatient) and were established specifically to treat people with co-occurring MH/SA
disorders. In our early discussions with SAMHSA staff, we learned that information
about front-line workers was of interest and would complement the programmatic
information coming from the CSAT-CMHS demonstration program mentioned above.

This report describes the 30 programs in which the 71 respondents work. At our exit
conference at SAMHSA on the first report, staff expressed interest in learning about
the programs that these respondents work in. Hence we decided to produce this
companion report.

We identified these 30 programs through references in the literature, descriptions of
the special demonstration programs and other Federal programs, and suggestions from
experts. Almost all of them treat clients with co-occurring MH/SA disorders
exclusively, although a few also have some clients with mental illnesses or substance
abuse problems only.

The programs are located in 20 States2 and are very diverse both demographically
and programmatically. Twenty-five percent are in metropolitan areas (cities over
500,000), 15 percent in small cities or rural areas, and the rest in medium-sized cities.
The providers running the programs include mental health providers, substance abuse
providers, private non-profit social service agencies, hospitals, and a veterans service
agency. Seven are recipients of CSAT-CMHS demonstration funds, and two receive
PATH funding.

Though we did not delve deeply into the origins of these programs, our strong
impression is that the major impetus in their development was the recognition by key
staff that this segment of their client population was growing, and that their needs
were not being adequately met by existing services.

We conducted this inspection in accordance with the Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.



   2 Alaskq California Connec~icu~Delaware, Florida Geor@ I1h%ok,Indian~ A4issou~ Nebraskq New York
Ohio, Oklahom~ orego~ South Caroling TL=w.s,Vermont, Viiiq  W~consitq and Wyoming.


                                                   3
                             PROGRAM       DESCRIPTIONS



The following information comes from discussions with 71 managers and front-line
staff who work in 30 programs, located in 20 States, designed specifically to serve
persons with co-occurring MH/SA disorders. Our primary focus in these discussions
was on respondents’ experiences and perceptions about working with clients with co­
occurring MH/SA disorders, rather than on their programs per se. However, in order
to have a context in which to understand their comments, we asked respondents to
briefly describe certain aspects of the structure and operation of their programs.

These descriptions are best understood by reading them along with our companion
report entitled “Services to Persons with Co-occurring MH/SA Disorders: Provider
Perspectives” (OEI-05-94-O0150), which presents an analysis of the responses of
managers and front-line staff to our survey on how they serve this population. The
combination of that survey analysis and these descriptions provides as complete a
picture as possible of issues, successes, and problems in the emerging field of treating
persons with SA/MH disorders.

These programs include residential programs, outpatient programs, day treatment or
partial hospitalization programs, community treatment team programs, and a single
room occupancy hotel with a day manager funded by a community mental health
center (CMHC). We present a general description of four aspects of each program:
structure, funding, clients, and services. The information reflects what our respondents
told us - and as much as they told us. We did not attempt to veri& their comments,
review program materials, or evaluate these programs in any way. However, since
little is known about programs that work specifically with this population, we believe
that this information will be of interest to people in the field.

By way of introduction, we note that respondents share the same broad goal for their
clients, namely stabilization and a better quality of life. Furthermore, they view
“recovery” as a relative term, and expect it to occur gradually over a long period of
time. What is interesting to see is both the similarities and the differences in the way
their programs are addressing that goal,


                                Six Residential IYograms

Residential Program #1

Structure: This 60-day program was established in 1994. Located in a large city in
Oklahoma, it is run by a small chemical dependence agency under a subcontract with
a major hospital, Prior to establishing this program, the hospital led the formation of
a consortium of agencies providing a continuum of services including detox, inpatient,
residential and aftercare programs.



                                            4

Training andevaluation are both keycomponents ofthis program. Training is
provided not only for staff in the program itself, but for residents and medical students
at the university’s College of Medicine. Evaluation will be conducted every quarter,

Funding        Funding is provided by mental health and substance abuse block grant
funds.

Clients: The program has 16 beds, with an average census of 14 clients. The majority
of the 26 clients (half male, half female, 35-40 years old ) served in the first quarter of
operation experienced depression, with a high occurrence of personality disorders.
They abuse alcohol, marijuana, or crack cocaine, and polyabuse is not uncommon.

Services: Intake, assessment, and referral to this program are done at the hospital by
a’ treatment team comprised of the program director, a psychiatrist, an intensive case
manager from the residential program, and a mental illness specialist. The team
reviews each case weekly and psychotropic medications are provided through the
hospital, with oversight by the psychiatrist.

The residential program itself provides case management, individual and group
counseling, and education groups.3 The agency has a very diversified array of
chemical dependency services available to the clients as well. Staff consist of the case
manager, clinicians, and counselors.

Residential Proaam              #2

Structure: This mental health agency, located in a large city in the East, has operated
two programs for persons with co-occurring MH/SA disorders for a year and a half -
an 18 month residential program and a continuous treatment team (CTT) which
deliberately targets people who have failed in another agency CIT. One person
supervises both programs and also carries several clients in a case management
capacity. Each program has a staff of seven including a clinical supervisor, nurse, and
a diverse group of people conducting case management and the other activities of the
program.

Funding Funding includes State funds and Federal funds from a special grant. The
agency director has done some formal outcome evaluation of clients with co-occurring
MH/SA disorders and would like to continue, but said that a cut in their Federal grant
has precluded continuing formal evaluation at the moment.

Clients: Federal funding mandates targeting people of color, women of childbearing
age, and people at risk for HIV infection. There are 15 beds in the program, and 25




    3 Wesoon learnedthat respondentstalkingabout ‘>~choeducation” were referringto diff?rent thing from C1OS.WS   to counseling
sessio~ and from teaching rux only about mental illness but abo about mbstance abuse and other topics such as daiiy living skills
Hence we have chosento use the broader term “education”in this report


                                                                 5
clients come throughout in a year, Two-thirds are men. Clients are severely mentally
i114;some also have borderline personality disorders.

Semkes: The agency provides access to a continuum of services, beginning with case
management, through the continuous treatment team, to which residential clients can
“graduate” and remain as long as needed. Within the residential program, clients
receive medications and psychiatric monitoring along with individual and group
counseling, and education. They are required to attend 12-step5 meetings, including
some Double Troubleb meetings, daily, They also participate in recreational activities,
which the agency views as important replacements for substance use/abuse.

Residential Program #3

Structure: This is a 90-day residential program run by a private non-profit (religious
based) social service agency in Alaska. The agency is substance-abuse based and this
program is strongly grounded in the 12-step philosophy. It is staffed by the director,
two alcohol and drug counselors, and four paraprofessional mental health aides.

Funding Funding includes Salvation Army funds and special Federal funds
specifically targeted at Alaska Natives.

Clients: Half or more of the clients are Alaskan Natives. Two thirds are male, and
on average, clients are in their mid-20s. Clients have chronic mental illnesses and
some from post traumatic stress disorder due to prior abuse in the family. They abuse
alcohol, marijuana, and crack cocaine.

Semites: Clients with chronic mental illness receive mental health-related services at
the local CMHC. A psychiatrist comes to the program weekly to monitor medications
for the Alaska Native clients, specifically. The director reports that the agency
recently “lost” a halfway house and case manager for an aftercare program. She also
said that clients with personality or mood disorders who are not connected with either
the CMHC or the Indian Health Service health care network often relapse during
lengthy waits for services from those systems,

The residential program runs 12-step study groups, educational groups, and some
recreational activities. Some clients also attend 12-step groups in the community. The
program refers a small percentage of clients to the vocational rehabilitation agency in
the community at the end of their stay.




  4 The severe or chronic mental illnesses named wereprimarily schizophrenia and depression.

  5 Al~o&li~s Anonymo~     Narcoh’csAnonymous, etc.


  6A WI of 12-stepprogram developed specificallyfor persons with dual disorders.



                                                              6
Residential Promam #4

Structure: ~isisa23-year-old        substance abuse provider, which has been seting the
persons with co-occurring MH/SA disorders in this Nebraska city for some 5 years.
Staff consists of a clinical director, a psychiatrist consultant, counselors, nurses, and full
and part-time recreation therapists. In addition to this residential program, the agency
runs an outpatient program and a residential program for adolescents with co­
occurring MH/SA disorders.

Funding Federal CSAT-CMHS demonstration funds, State, city and county funds,
and some United Way dollars, provide funding, with a small amount of Medicaid and
private reimbursement.

Clients: Clients are homeless or at risk of hopelessness. The program houses 30
adults and 15 youths at a time. Roughly two-thirds are male. Clients are chronically
mentally ill; some have personality disorders. Reportedly, a majority have been
victims of sexual abuse. Substances used are alcohol and cocaine, including crack.
Reportedly some younger clients use LSD or inhalants. Some adults abuse
amphetamines.

Services: This program was described as a modified therapeutic community with a
long-term approach. Clients may remain for up to 1 year. Case managers at the
parent agency link clients with services needed outside the agency. Residential
services include medication management, group and individual counseling, education,
and recreational activities. These latter are a large part of the program; staff believe
strongly that clients must learn to use leisure time in a healthy way to replace
drug/alcohol use.

Residential Prom-am #5

Structure: This 2-year-old program located in a large city in California is run by a
private non-profit agency serving veterans.

Fundhqy CSAT-CMHS demonstration funds, Health Care for the Homeless, HUD,
and the Department of Labor were all mentioned as sources of funding.

Clients: The 80 clients are 85 percent male and average around 45 years old. All are
veterans who have been homeless or are at risk of hopelessness.     They have chronic
mental illnesses; respondents especially see depression, anxiety, and post traumatic
stress disorder. Most clients are judged to be employable.

Services Each client is assigned a case manager and a counselor. Respondents
described the program as a structured program built on a social model, with a heavy
focus on peer support, jobs, self-sufficiency, and integration into the community. The
emphasis is on building confidence, self esteem, a sense of community, and, especially,
a sober lifestyle.

Clients receive medications through Veterans Administration programs. In-house
activities include case management, counseling (group and individual), and a variety of
education groups. Clients are required to attend 12-step meetings either on or off-site
and may continue to attend them after graduating from the program.

Residential Promam #6

Structure: This is a large private non-profit human service agency in New York City.
It runs both housing programs and a day treatment program for people with co­
occurring MH/SA disorders. The housing program is about 3 years old.

Funding The program is funded by CSAT-CMHS demonstration             funds; Medicaid and
Medicare reimbursement were also mentioned.

Clients: Three hundred of the 400 served by this program have co-occurring MH/SA
disorders. From 60 percent to 80 percent are male and they range in age from 30 to
50 years old, although most are in their 30s. Clients are chronically mentally ill; some
have personality disorders. They use primarily alcohol and crack cocaine. Clients are
homeless or at risk of hopelessness.

Semites: The housing program is tailored to individual needs and geared to provide
the least restrictive living environment possible for clients, for as long as they need it.
It includes a range of housing from independent living to housing with intensive
support services, where residence counselors working in teams make frequent visits to
clients. Clients can participate in the agency’s day treatment program for persons with
co-occurring MH/SA disorders and, through its case managers, access other services
both in and outside the agency. Most clients have a psychiatrist or are affiliated with a
hospital or clinic for on-going mental health care.

                                Eight Outpatient l?ogram.r

Outpatient   ProEram #1

Structure This 5-year-old partial day treatment program is run by a large private
non-profit social service agency in New York City. The program operates from 4 to 8
pm Monday through Thursday (after-school hours). Clients may remain in the
program up to 18 months. Staff include three social workers, a part-time drug and
alcohol counselor, and a part-time psychiatrist consultant. There is a low client to
staff ratio.

Because so many of their clients have learning disabilities, the agency is now
developing an alternative high school.



                                             8

Funding:     Theprogram  wasstarted with funding from aspecialtask  force tith the
mission of bridging the gap between the mental health and substance abuse needs of
adolescents.

Clients: The program serves adolescents from 13 to 18 years old. Some 14 clients

(half girls, half boys) are in the program at a given time, with 200 served annually.

They experience a wide range of emotional disturbances, especially emergent

schizophrenia or depression, and many come from families where there is physical or

sexual abuse, and/or substance abuse. According to the director, as many as 90

percent of the girls have been sexually abused.


Services: The program takes a family systems approach, and focuses heavily on

helping clients maintain sobriety and complete school. It is a highly structured

program that provides close monitoring of psychotropic medications, routine drug

screens, individual, group, and family counseling and education, recreation, and an

Alcoholics Anonymous meeting on-site once a week. A major goal of the program is

to complete a thorough assessment of each client.


Outpatient   Program #2


Structure: This 2-year-old program serves Native &nericans with co-occurring

MH/SA disorders on a rural reservation in Wyoming. The staff consists of a substance

abuse counselor and a registered nurse who is Indian and who works as the case

manager and outreach specialist. Respondents say that having Native American staff

reduces the potential for cultural clashes between the Indian clients and non-Indian

providers.


Funding: The program receives some PATH funding for its case management

component; Medicaid and Medicare reimbursement are also sources of funding for the

program. Respondents reported that Medicare and Medicaid requirements that

substance abuse counselors have Master’s degrees restrict the program’s ability to hire

Native Americans, since few Native Americans have these degrees.


Client.x The program serves six Native American clients who have co-occurring

MH/SA disorders from two tribes, almost all of them men in their 40s. Clients have

severe mental illnesses and abuse alcohol (often to self-medicate), marijuana, and

inhalants. Many have not been treated for their illnesses until recently. Other

common characteristics are geographic isolation on the reservation, organic disorders,

poor health, and troubled family histories including alcoholism, poverty, and poor

housing.


Services: The program emphasizes outreach, The provider offers education,

individual therapy, medication management, and family counseling. The program’s

case manager focuses on establishing social supports for clients. Clients participate in

community 12-step programs and the program runs its own therapy group, which




                                            9

meets on the reservation. The agency coordinates its services with those of the Indian
Health Service wherever possible.

Out~atient Promam #3

Structure: Asubstance abuse agency ina Virginia ci~developed this program 4 years
ago, The program runs Monday through Friday, three hours a day, and lasts from 12
to 18 months depending on client. The program is expanding and its two therapists
will soon become full-time.

Funding      County substance abuse dollars fund the program.

Clients: The program serves a maximum of 12 clients, most from 30 to 35 years old.
In addition to chronic mental illness, many clients reportedly also have personality
disorders. Some have experienced childhood abuse. Many of the women in the
program are mothers. Clients abuse alcohol and crack. Some clients are homeless,
but many live with their parents. All receive SS1 or SSDI and Medicaid.

Services: Therapists carry six clients each, and provide education and individual and
group therapy in addition to case management. Each client also has a prima~
counselor at other agencies in the mental health system. Although the primary focus
of this program is on substance abuse, the goal is to help clients understand both their
mental illnesses and their addictions as well as to give them the skills and support
necessary to maintain abstinence.

Outpatient    Prowam #4

Structure: This 3-year-old program in Texas is based in a mental health agency and
targets homeless people with co-occurring MH/SA disorders. The agency takes a
comprehensive approach, via case management, to meeting many client needs in the
hope that they will become more independent and live in the community. The
agency’s homeless services unit first identifies homeless people with co-occurring
MH/SA disorders. Case managers in this program then link those clients with services
within and outside the agency for 6 months to a year. After leaving this program,
clients continue with another case manager from the main program of the agency.

Staff consists of one administrator/case manager, and a case manager. Each carries 15
to 20 clients. Under a contract, a psychiatrist visits the program twice a month.

Funding Funding comes from Federal PATH dollars as well as funding from the
parent agency. Reportedly, the agency cannot bill for Medicaid reimbursement due to
its Federal grant.

Clients: The program sexves 30 to 35 clients at a time (about 350 a year). Most
clients are in their mid-20s to mid-40s. The PATH grant requires that all of the
program’s clients be homeless and chronically mentally ill. Reportedly, the agency is


                                            10
seeing a rapid increase in clients who have organic disorders due to either heavy

substance use or head injuries. Also, many clients have a childhood histo~ of sexual

or physical abuse. About one-third of clients receive SS1 or Medicaid.


Services: The primary emphasis of this program is outreach, engagement and linkage.

The needs of clients entering the program for food, shelter, and clothing are addressed

immediately, and the program acts as clients’ representative payee as needed. They

then provide on-going case management, with linkage to mental health services

needed, and substance abuse counseling in house, involving clients’ family and friends

where possible.


Case managers also run education groups in four shelters. They tried a specially

developed module, specifically for persons with co-occurring MH/SA, but found it was

not useful for homeless people. The parent agency continues to use the module in its

other programs, however.


Outpatient   Promam #5


Structure: Housed in a substance abuse agency, this 3-year-old State “mental health-

substance abuse” pilot program seines a rural, eight county area in Illinois. It

emphasizes assertive case management and provides clients with large amounts of long

term support.


Funding: The program receives special State funding, half from the Department        of

Mental Health, half from the Department of Alcohol and Substance Abuse.


Client.x The program’s 30 clients all have co-occurring MH/SA disorders and average

30 years old. They are chronically mentally ill (mostly schizophrenic) and use or abuse

mainly alcohol. Clients are often referred to the program by the State psychiatric

hospital, and it is a program requirement that clients have had at least three

admissions to psychiatric facilities before they can enter. In addition, most clients have

had housing problems and many have family histories of mental illness and alcohol

abuse.


Semites: Case managers refer clients to the local CMHC for mental health treatment.

In house, the program provides special groups on co-occurring MH/SA disorders,

detoxification services, and inpatient substance abuse treatment. The groups are

designed to be less confrontational and more flexible than traditional substance abuse

treatment. For example, abstinence is not an absolute requirement for participation.


Outpatient Promam #6


Structure: This l-year-old outpatient program in Connecticut is run by a CMHC

which is the lead agency for the mental health agencies in the area. A committee of

community agencies focused on co-occurring MH/SA disorders was set up by the
agency several years ago, and the agency holds an annual conference on co-occurring


                                            11
MH/SAdisorders (some 150people attended themost recent one). Italsoholdsa9-
week training seminar and is developing a resource manual for staff. The program
director is a psychiatrist with several years of experience in this field, who is also on
the faculty of a major university. Services are divided into two components, one for
persons with chronic mental illnesses and another for persons with less severe mental
illnesses.

Funding This program receives Federal funding from the National Institute on Drug
Abuse. The parent agency funds both mental health services and a substance abuse
program.

Clients: Clients, who have chronic mental illnesses, are reportedly mostly in their 20s
and 30s. About 40 percent are female, and 50 percent are minority. They have
histories of poor compliance with medications, frequent rehospitalizations, legal
problems, and homelessness; a very high percentage reportedly have learning
disabilities. All receive SS1 and Medicaid.

Services: The agency offers a full continuum of care including community treatment
teams that provide case management and referral, inpatient, outpatient, day
hospitalization, and relapse prevention services. The director described the program’s
approach to this population as eclectic, integrating a wide variety of services into a
network, with individual clients referred to services according to their needs. Those
with chronic mental illnesses receive services within the provider agency. Those with
less severe mental illnesses receive concurrent semices from this provider and a
substance abuse provider.

Besides the director, staff include an administrator who has some clinical duties and
oversees research, and three people who share a full-time position and provide
consultation and training to other staff at both the mental health and substance abuse
agencies. More staff will be hired to carry out the research component, which is to
continue for several years.

Outpatient   ProQram #7

Structure: This program has been run by a county CMHC in Illinois for 3 years. It
offers intensive case management on an outpatient basis. Staff include a coordinator,
two case managers, and a part-time psychiatrist. Staff know and work with each
others’ clients. They take a longitudinal view of treatment and care, and expect clients
to use the sexvice throughout their lives.

Funding The program is part of a special Statewide program for people with co­
occurring MH/SA disorders. Funding comes from the State mental health and
substance abuse agencies, and Medicaid reimbursement.

Clients: The program serves 40 clients. Their average age is 32 and 75 percent are
male. The program sees clients with schizophrenia, primarily, and many reportedly


                                            12
also have personality disorders. Alcohol use is primary; clients also use marijuana and
respondents said that crack cocaine “is like a plague.” Many clients have continual
housing problems. They reportedly have “burned down all their clinical bridges”
before coming to this program. About 70 percent receive SS1 and Medicaid. There is
a waiting list of 30 clients.

Semites: The program uses case management to link clients with community services.
Case managers each carry 15 clients; the coordinator has a caseload of 10. Staff also
do some group work such as modified 12-step groups using an educational, non-
confrontational approach, or education groups.

Outpatient            Program #8

Structure: This 2-year-old program in California was developed from a homeless
program for chronically mentally ill clients. It is this city’s only program for clients
with co-occurring MH/SA disorders. Treatment lasts for 16 weeks, although the time
limit is flexible. Staff include the coordinator (who serves part-time as a case
manager), case managers, a part-time psychiatrist, and a full-time therapist position
“L..   --A   1-..
                L.. :--l:..:
                       -     A.. -l.
Mltu     la! Uy Lwu Mlulvluutlls.


Funding:        Funding includes Medicaid reimbursement          and CSAT-CMHS demonstration
dollars.

Clients: The 108 clients have severe mental illnesses. Average age is the early 30s.
Some reportedly have borderline personalities, especially fem~les~ Many use ~lcohol
to self-medicate; they also use cocaine, PCP, and crack. Many clients have been
homeless. All receive SS1 and Medicaid.

Services: Intensive case management is the agency’s core service. Other program
components include medication management, groups that address daily living skills,
mental health and substance abuse education, and a Double Trouble 12-step group.

                           Ten Day l’keatmentlPamal Hospitaluation Bograms

Dav Treatment/Partial              Hospitalization   Promam #1

Structure: Run by a CMHC in Ohio, this program was established in 1988. It
operates 5 days a week, 4 or 5 hours a day. It was established when the county
mental health board identified a need for services for people with severe mental
illness and substance abuse problems. Most clients remain in the program for 6 to 9
months, although they may stay indefinitely. Staff include a psychiatrist, case
managers with caseloads of 15, counselors, a nurse, and an art therapist.

Funding The county mental health board is the primary funder. The program bills
Medicaid and Medicare for some services as a partial hospitalization program. United
Way also provides some funding,


                                                       13

Clients: The program has some 50 active clients, predominantly African American
men with schizophrenia/schizo-affective disorders. The average age is 32. Clients are
polyusers. The most popular drugs are crack cocaine (58 percent), alcohol (35
percent), and marijuana (4 percent). In addition, 50 percent of clients may be on
parole at any one time.

Services: Services include intensive case management with referral to services as
needed, medication management,      group and individual counseling, education,
recreation therapy to counter boredom and teach clients socialization skills, and 12-
step groups, both traditional and modified.  Case managers sometimes accompany
clients to 12-step groups in the community to help them feel more comfortable with
participating.

Dav Treatment/Partial   Hospitalization   Promam #2

Structure: This program in Texas is only a few months old. It is run by the county
comprehensive CMHC and operates 5 days a week from 8 am. to 5 pm. It is 90 days
in duration, with some flexibility for a client to extend. The agency runs a residential
program for clients with co-occurring MH/SA disorders which led to the formation of
this day program. Staff include a director who also serves as a caseworker and
counselor, a psychiatrist, and a licensed vocational nurse.

Funding The program receives county mental health dollars and Medicaid
reimbursement.

Clients: The program serves 20 severely mentally ill clients, 60 percent of them male
and most in their 20s and 30s. Some 30 percent receive SS1 and Medicaid. About 25
percent are referred to the program on probation. Many have histories of physical or
sexual abuse (reportedly up to 90 percent of females and 50 percent of males), or
come from families where substance abuse is present.

Services: The agency provides a continuum of services from outreach to treatment to
aftercare, allowing clients to move back and forth between programs as needed. This
program focuses on education and peer support, mostly within groups, to encourage
sobriety and increase client stability. It provides medication management, education,
12-step groups in the community, and modified 12-step discussion groups in house.

Dav Treatment/Partial   Hospitalization   Program #3

Structure: This 6-year-old program is in upstate New York. According to the
director, the program is “approaching maturity.” It is run by the mental health
department of a hospital and operates 5 days a week for 5 hours. Clients stay an
average of 18 to 36 months. Staff include primary care counselors, who oversee
treatment, a vocational rehabilitation counselor, and a recreation counselor,




                                             14

Funding Though begun initially with Federal grant monies, the program now is
funded primarily through Medicaid reimbursement.

Clients: The program’s mission is to seine persons with severe mental illnesses who
have failed in other treatment programs. Their clients include persons with anxiety
and personality disorders in addition to schizophrenia and depression. Sixty percent of
the 50 clients are male, most in their mid-20s to mid-30s. Twenty percent are African
American. Almost all clients receive SS1 and Medicaid. Many clients have been or
are at risk of being homeless, and 20 to 30 percent are on parole. Reportedly, clients
are at all levels of functioning.

Services: The program provides medication monitoring, individual therapy, vocational
counseling, group counseling and education. Clients attend the groups most in
keeping with their individual needs; some 20-25 groups are offered every 4 month
cycle. Some clients also attend 12-step meetings in the community. Through case
management, access to other services is provided.

Dav Treatment/Partial   Hos~italization   Pro~ram #4

Structure: This 4-year-old program in Indiana was      established by a CMHC. It is
housed in the same building as a homeless shelter.     The program operates Monday
through Friday, 6 hours a day. Up to 40 treatment       days per client are covered under
State Medicaid guidelines. The program is staffed      by a director and two counselors.

Funding Half of the funding is from the State substance abuse agency and half from
Medicaid or Medicare.

Clients: The program serves both clients with co-occurring MH/SA disorders and
others with problems only with substance abuse. Clients average between 30 and 40
years old. Twenty percent are homeless persons living at the shelter; other clients
include court-order indigents and clients referred by the CMHC. Between 80 to 90
percent of the clients are male; another program in the city serves women. Besides
having a wide variety of problems related to mental illness or substance abuse, clients
are also very mixed in terms of levels of functioning.

Sexvices: This is a group-oriented, 12-step-based   program (specifically focused on
steps 1-3.) Attendance at sessions is mandatory.     Groups include 12-step study
sessions, education, daily Alcoholics Anonymous     meetings, group therapy, and
community meetings. Medication needs are met        by the CMHC.

Dav Treatment/Partial   Hospitalization   ProEram #5

Structure: This 4-year-old program is located in a suburb of a major metropolitan
area in the South, It operates Monday through Friday, 6 hours a day. There is a 90
day time limit, recently imposed due to a flood of new clients (see Clients below).



                                             15

FundirIg Funding is primarily Medicaid reimbursement, but also includes some

private reimbursement. However, the Director reported that the county is now

evaluating day treatment programs in view of the potential privatization of government

services. It is not clear how future changes will affect the program.


Clients: About 30 clients attend the program on a given day. They are primarily

males between 20 and 40 years old. Seventy-five percent are African American. The

majority are on SS1 and Medicaid. Many have been homeless or are highly transient.

They have severe mental illnesses and most, according to the director, also have a

personality disorder. Some are mentally retarded or brain-injured.


Right now the program is flooded with clients unable to enter the State hospital in the

area, which closed to voluntary admissions. Clients are being referred by hospitals and

mobile crisis units, often without any background paperwork, including a diagnosis or

record of medications. This is creating considerable chaos in the program, including a

very high turnover rate.


Sewices: The program is primarily group-oriented, with a strong 12-step format and

emphasis on education. Clients must be stable on medications, show some ability to

learn, and make some visible effort to adhere to the program’s schedule and demands.

Services include medication management in connection with neighboring CMHCS, 12-

step and 12-step study groups, education, and a strong socialization and recreational

component to involve clients in sober activities. Staff include the director, a nurse, a

substance abuse counselor, and a “human service technician.” Each person handles a

caseload, runs groups, and participates in all other program activities.


Dav Treatment/Partial   Hospitalization   Pro~ram #6


Structure: This l-year-old program is run by a private non-profit agency in South

Carolina in the foothills of the Blue Ridge Mountains. It is one of four programs

serving persons who are both homeless persons and have a mental illness; the other

programs are outreach, housing, and an HIV program. Clients are housed by the

agency, which serves as representative payee for those on SS1; they then may access

this program and other semices as needed. Clients may remain in the program for up

to 2 years, then enter Section 8 housing and continue in the agency’s case

management program.


Funding Funding is primarily Medicaid reimbursement, with some private

contributions. The agency’s housing program receives funding from HUD; the

outreach program is funded by a Federal McKinney Act grant (for services to the

homeless).


Ci.ients: The program serves 16 persons, half males, half females, with an average age

of 35. Half are minorities. Clients have severe mental illnesses. The majority receive

SS1, Medicaid, or both; some receive veterans benefits. Besides being homeless, a




                                             16

third have a prison record, a third are developmentally disabled, and many were raised
in dysfunctional families, or in a foster home or institution.

Services: Services include case management, medication management, counseling,
education, a special Alcoholics Anonymous for homeless people (clients also go to
community AA meetings), and recreational activities, including 1 week a year spent at
a church camp rented by the agency. Recreational activities include ballroom dancing,
a talent show, and a “Hopes Course” designed to build self esteem. A strong emphasis
on permanency, a foreign concept to most homeless people, underlies the program.
The program has 25 rules which the clients vote on and then police themselves; the
director believes that structure, with consequences for violating rules, is important.

Dav Treatment/Partial   Hospitalization   Program #7

Structure: This 2-year-old day treatment program in Oregon is run by a mental health
provider. The program is part of a comprehensive array of services offered by the

agency. Clients may stay in the program indefinitely. Staff include an administrator,

two case managers, two specialists on co-occurring MH/SA disorders who run groups,

and a half time occupational therapist.


Funding This is one of the CSAT-CMHS demonstration sites. In addition the agency

receives Medicaid and Medicare reimbursement, and private donations. Reportedly,

the program has not been able to access State substance abuse dollars.


Clients: The approximately 140 clients are homeless or at risk for hopelessness.

They are 90 percent male and range in age from 19 to 55. Most have schizophrenia,

and 20 percent suffer from depression. From 50 to 75 percent receive SS1, Medicaid,

or both.


Services: Since the program serves homeless people, the first task of the case

managers is to find housing (one group home is specifically for persons with co­

occurring MH/SA disorders), as well as link the client to a psychiatrist, nurse, and

medications.    Some clients receive acupuncture to deal with cravings due to addiction.

The in-house program reportedly takes a biopsychosocial     approach, offering education,

group treatment, and step study or modified 12-step groups (the first three steps only).

Art and music therapy, and recreational activities, are also part of the program.   Staff

are trying different approaches in an effort to meet client needs.


Dav Treatment/Partial   Hospitalization   Prom-am #8

Structure: This agency is located in a medium sized city in Ohio. In addition to this
6-year-old partial hospitalization program, the agency also runs a small residential
program and an outpatient program. Partial hospitalization is highly structured and
runs 5 days a week, 3 hours a day. Treatment is conducted in 12 week modules,
although clients’ time in treatment is not limited.



                                             17

Funding Theprogram is funded through coun~tw dollars, State mental health

dollars (through thecounty), andsome Federal grants. Theprogram’s funding is tied

to a State initiative to reduce hospital stays; thus its objective is to keep clients out of

the hospital. The agency designated mental illness as the primary disorder due to

county requirements, and Medicaid requirements dictate a client-staff ratio of 1 to 6.


Clients: The program serves 45 clients, 50 percent of whom are minority. Average

age is 35 years old, and the program has few clients over 45. Clients’ levels of

functioning vary. Many can take care of themselves but have low socialization skills

and few friends. Some are in the program due to a court order.


Semites: The agency has recently intensified its program by moving from a social to a

therapeutic approach, and this particular program is now undergoing an evaluation.

Clients participate in individual treatment and group sessions. Groups are based

loosely on the 12-step model and range from education on mental illness and

substance abuse to daily living skills to alternatives to substance abuse. The program

also provides case management, vocational education, recreation, and some housing.


Dav Treatment/Partial    Hospitalization   Pro~ram #9


Structure: This 8-month-old intensive outpatient program in Miami, Florida is run by

a mental health center with a Hispanic clientele. It operates Monday through Friday

from 10 am to 3 pm. Clients are expected to take about 9 months to pass through the

program’s 3 levels, although deadlines are flexible. Staff include a psychiatrist, a case

manager, two clinicians, a family therapist, and a person who runs stress management

groups.


Funding:   The program is funded by CSAT-CMHS demonstration             funds.


Clients: The program is designed for Hispanic persons who are both homeless and

have co-occurring MH/SA disorders. The 12 clients (10 of them male) are Cuban or

Cuban-American and speak Spanish. They average around 35 years old. All have

severe mental illnesses (paranoid schizophrenia, schizo-affective disorders) and use

crack; cocaine, or alcohol. From 70 to 80 percent receive SS1 and Medicaid.


The program is growing. At the time they were contacted, they expected to serve 40

clients by the end of 1994.


Services: The program takes an educational, behavioral approach in a Hispanic

environment which respondents described as “friendly” and “emotional.” There are

three levels. The first concentrates on psychiatric stabilization, the second, on coping

with mental illness, and the third, on required attendance at two psychotherapy groups

a day. Services include case management; group, individual, family, and recreational

therapy; and assistance with stress management. Clients also are encouraged to attend

12-step groups. After graduation, clients continue in aftercare.




                                              18

Dav Treatment/Partial   Hospitalization   Promam #10

Structure: This not-for-profit multi-service agency in New York City was founded 25
years ago to help homeless substance abusers and has since added mental health care
to its services. The program for clients with co-occurring MH/SA disorders was
established in 1986. The agency offers a continuum of care that includes housing
programs and a day treatment program for people with co-occurring MH/SA
disorders. Clients can take advantage of both programs at once and stay with the
agency indefinitely. (See also Residential Programs)

The day treatment program runs Monday through Friday, 9:00 am to 2:30 pm. It
emphasizes activity and participation, and case managers ensure that program
attendance is high. A multi-disciplinary team of primary therapists, case managers, a
part-time psychiatrist, and part-time art and music therapists, provides care. Client
input on program is encouraged through one-on-one meetings between elected
consumer representatives and the program director.

Funding The program receives funds from the CSAT-CMHS demonstration           program,
and Medicaid and Medicare reimbursement.

Clients The program serves 36 clients at a time, with a total of 50 a year. Currently,
85 percent of the clients are male, 80 percent are minority, and average age is
between 30 and 40 years old. All receive SS1 or SSDI or VA benefits as well as
Medicaid. In addition to severe mental illnesses, some clients are infected with the
HIV/AIDS virus, many have experienced physical abuse, been homeless, or served
time in jail.

Sewkxs Services include medication management, individual therapy, group therapy,
modified 12-step groups which meet in house, education, music and art therapy, field
trips, and physical exercise. Art therapy is said to have been especially successful.
Average daily attendance is reportedly over 90 percent.

                        Five Continuous Treatment Team Programs

Continuous Treatment    Team Prom-am #1

Structure: This is a pilot demonstration program begun in 1990 which is part of a
previously existing program for persons with severe mental illnesses only. Located in
Wisconsin, the program constitutes an outpatient department of the State mental
hospital located there. Based on a medical model, the program uses a continuous
treatment team with staff from many disciplines, supervised by psychiatrists. The
program’s goal is to offer whatever assistance is needed by individual clients to
improve their functioning in the larger community. Clients are expected to remain
with the program for life.



                                             19

Funding State hospital funding, private insurance, and Medicaid are sources of
funding. The State has a special Medicaid reimbursement category called “community
support services” which allows billing for services related to both mental health and
substance abuse.

Clients: The 75 clients with co-occurring MH/SA disorders constitute about 60
percent of all clients in this program (the others have mental illnesses only). They are
90 percent male. To enter the program, clients must have spent less than a 1 year in
the State hospital, be between 18 and 30 years old, and have a chronic mental illness
(Axis I disorder). Drugs used and abused include alcohol, marijuana, cocaine, and
over-the-counter stimulants.

One third of the clients are described by the director as “moving targets” whose
substance abuse pre-dated their mental illness and is very entrenched. They have
failed in every other treatment program and are very difficult to engage.

Services: The program takes a highly individualized approach to clients. It has a
strong emphasis on setting limits and also relies heavily on work as a treatment
modality, finding that many clients use substances just to counteract boredom and
have something to do; the program has a 50 to 60 percent job placement rate. The
program also serves as representative payee for its clients.

Several members of the team work with each client simultaneously and
interchangeably, giving clients several people to rely on and allowing staff to share
responsibility for clients. Staff also work with important people in their clients’ lives.

Continuous Treatment     Team #2

Structure: This program, located in a rural two-county area in Wisconsin, is run by a
mental health provider. It takes a long-term view of treatment, expecting to carry
clients for the rest of their lives. Staff consists of a psychiatrist, a clinical coordinator,
and case managers with 14 clients each, who serve clients in the home as well as
referring them to services outside.

Funding The program receives Medicaid reimbursement under a special State-
established category called “community support services,” which allows billing for
services related to both mental health and substance abuse.

Clients: Two-thirds of the program’s 51 clients are male. They range in age from 22
to 53. In addition to major Axis I mental illnesses (a program requirement), many
clients, especially younger ones, reportedly have post traumatic stress disorder due to
severe childhood abuse. They are using or abusing alcohol, marijuana, and over-the-
counter and prescription medications. Almost all clients are on some form of public
assistance.




                                              20

Services: Theagency integrated substance abuse treatment into its mental health
treatment, realizing that most clients were going to need long-term substance abuse
treatment combined with a great deal of support and interventions in many arenas.
The program tries to provide clients with structure and looks for replacement
behaviors for substance abuse.

Services include case management, medication management, psychiatric treatment,
psychosocial rehabilitation, and vocational support (finding jobs and supporting those
who work - about 25 percent of their clients). Some clients receive help in the home
with things such as money management, hygiene, or buying and preparing food,
through ancillary services purchased from another program. Respondents described
the program’s approach as being individualized and “whole health,” meaning that they
try to meet many different client needs.

Continuous Treatment    Team #3

Structure This continuous treatment team is one of two programs (the other is a
residential program) specifically for persons with co-occurring MH/SA disorders.
Teams of case managers, nurses, clinicians, associate and assistant clinicians work with
clients to provide whatever services they need. Clients may graduate from the
residential program to this program, where they may stay indefinitely.

Funding The agency is in the second year of a 3 year Federal grant from the Center
for Substance Abuse Treatment to serve persons of color, pregnant women, and
people with HIV. A recent cut in the grant reportedly led the agency to eliminate its
program evaluation effort.

Clients: The program serves about 70 clients, 80 percent of them male, They have
schizophrenia or major depression, and some have personality disorders. They most
commonly abuse alcohol or crack cocaine; use of heroin is reportedly on the rise and
polyabuse is also common. Many clients are HIV positive, and all are people of color.
Histories of hopelessness or brushes with the criminal justice system are common.
Almost all clients receive SS1, Medicaid, or both.

Services: The goal of staff is to help clients lead as normal a life as possible by
providing whatever help they need, from the most basic life skills to education,
vocational education, and jobs. The agency provides medication management,
counseling, education, 12-step groups (including a Double Trouble group), and a
“social skills” (recreation) group described by staff as very therapeutic. Clients are
referred out to other agencies for services not provided by this program.

Continuous Treatment    Team #4

Structure: This program operates community treatment teams of 5 to 7 staff,
including supervisors, case managers, and specialists (vocational, rehabilitation,
substance abuse). Located in Missouri, the program was started 2 years ago when its


                                            21
parent mental health center found that referring their homeless clients with co­

occurring MH/SA disorders to traditional substance abuse treatment was not working -

clients resisted going and continued using.


Funding The program receives CSAT-CMHS demonstration funds. The parent

agency also receives ACCESS funds for services to homeless persons with mental

illnesses.


Clients: The program serves some 65 clients, half male and half female, with an

average age in the early 30s. Reportedly, the number of African American male

clients is growing. Clients have schizophrenia or depression, and some have

personality disorders. They use or abuse alcohol, marijuana, and crack cocaine; heroin

use is reportedly rising. Many clients have a history of hopelessness and/or

unsuccessful treatment, and lack social support. Some have jail or prison records.

The majority receive SS1, Medicaid, or both.


Semites: Teams reportedly take a “generalist” approach in providing supportive

counseling, skill building, and referral to needed semices both in and outside the

parent agency. Services are described as continuous (for an unlimited time period),

holistic in addressing a variety of client needs, and individualized to match the need of

each client.


Continuous Treatment    Team #5


Structure: This new program is located in a 3-county, 670 square mile rural/suburban

area of Virginia. It was developed by a former substance abuse clinician who noticed

that clients with co-occurring MH/SA disorders were falling through the cracks of the

existing service system. She supervises teams of “dual diagnosis specialists,” case

managers, and clinicians.


Funding The parent agency is a county mental health/mental retardation agency. We

do not know whether this particular program receives any special funding from any

source.


Clients: Eighty percent of the 75 clients are male, with an average age of 37. In

addition to severe mental illnesses, up to half of the clients have personality disorders.

The majority receive SS1 or SSDI.


Senkes: According to the founder, this program is based on a model developed by

Dartmouth University to provide “integrative, comprehensive, concurrent, sequential

services” through a continuous treatment team. The program provides outreach,

psychiatric care and other clinical services, intensive case management (including

advocacy), club house, residential services, and education. Also, 65 clients are in a

special “pre-treatment” group; 10 are in a relapse prevention group.





                                            22

                                  One Other Program

Structure: Wespoke totheday manager inasingle room occupancy hotel (SRO) ina
Vermont. Theposition wasestablished 2yearsago following arashof false fire
alarms, and subsequent warnings by the city to the entity running the SRO. The
manager works 6 hours a day, 5 days a week.

Funding The SRO receives funding from HUD (moderate rehabilitation) and the
State, and will soon receive HUD Shelter Plus Care dollars. The manager’s position is
funded by the local CMHC.

Clients: At least half of the SRO’S 25 residents have co-occurring MH/SA disorders.
The majority are men, about 40 years old, who have serious mental illnesses, drink
mainly beer, are very isolated socially, and have lived at the SRO for years. They are
clients of the CMHC. A smaller number of residents are young men, referred by the
State hospital or a local homeless program, who are heavy drinkers. Reportedly
resistent to treatment, they tend to have a social support network of some kind still
intact, and almost always leave the SRO within a few weeks or months.

Sexvices: No treatment-related services are offered in the SRO. Residents who are
severely mentally ill are clients of the CMHC and receive case management and other
services there. The manager views her main goal as trying to overcome clients’
isolation through an “open door policy,” trying to make a personal connection and
draw residents into contact with her and with each other. However she is very
disappointed by the lack of in-house services and activities, from treatment to
recreation and socialization, which she believes residents desperately need.




                                           23

